               The Child Tax Credit Advance Payment Was
               Effectively Planned and Implemented, but a
                Programming Discrepancy Caused Some
                              Overpayments

                                   January 2004

                       Reference Number: 2004-40-042




This report has cleared the Treasury Inspector General For Tax Administration disclosure
review process and information determined to be restricted from public release has been
                              redacted from this document.
                                                DEPARTMENT OF THE TREASURY
                                                   WASHINGTON, D.C. 20220




INSPECTOR GENERAL
     for TAX
  ADMINISTRATION




                                                    January 28, 2004


       MEMORANDUM FOR COMMISSIONER, WAGE AND INVESTMENT DIVISION


       FROM:                           Gordon C. Milbourn III
                                       Acting Deputy Inspector General for Audit

       SUBJECT:                        Final Audit Report - The Child Tax Credit Advance Payment Was
                                       Effectively Planned and Implemented, but a Programming
                                       Discrepancy Caused Some Overpayments (Audit # 200340046)


       This report presents the results of our review of the Child Tax Credit (CTC) advance
       payment. The overall objective of this review was to determine if the Internal Revenue
       Service (IRS) effectively prepared for and implemented the CTC advance payment
       provision of the Jobs and Growth Tax Relief Reconciliation Act of 2003.1
        In May 2003, the Congress passed legislation that provided for substantial tax cuts.
       This legislation also included provisions to increase the CTC from $600 per child to a
       maximum of $1,000 per child, beginning with Tax Year 2003. The Congress also
       wanted the increased credit issued to qualifying taxpayers as an advance payment.
       This would enable taxpayers to receive the benefit of the increased credit during 2003,
       rather than having to wait to claim it when filing their tax returns in 2004. The advance
       payments were based on information reported on 2002 tax returns.
       Overall, the IRS effectively planned for and implemented the CTC advance payment
       provisions. Planning was started in January 2003, and the computer programming
       requirements were developed prior to the legislation being signed in May 2003. In
       addition, the IRS developed a notice to be issued concurrently with the advance
       payments and created a toll-free telephone number that taxpayers could use to inquire
       about the status of their advance payments.
       While the IRS did a commendable job of getting the advance CTC payments to
       taxpayers, we identified a computer programming discrepancy that erroneously
       calculated the CTC advance payment for some taxpayers who had claimed losses on


       1
           Pub. L. No. 108-27, 117 Stat. 752.
                                            2


their 2002 tax returns from either Profit or Loss From Business (Schedule C) or Profit or
Loss From Farming (Schedule F). The programming logic did not include these losses
when computing the earned income amount used to calculate the CTC advance
payments. By miscalculating earned income in some cases, the IRS computed a larger
advance payment than was appropriate. We estimate at least 91,000 taxpayers
received overstated advance payments totaling more than $39 million.
To ensure the IRS was aware of the scope and causes of the programming problem, we
issued a memorandum to the Commissioner, Wage and Investment (W&I) Division, on
August 29, 2003. In the memorandum, we outlined the information we developed on
the CTC overpayments to taxpayers filing a return with Schedule C losses. Our
memorandum is included as Appendix V.
Management’s Response to Memorandum #1: The Commissioner, W&I Division,
agreed that some taxpayers received an overpayment of the advance CTC payment.
He stated the IRS was aware that the computation did not consider some
self-employment losses, and the Department of the Treasury’s Office of Tax Policy
approved the programming requirements prior to the advance payment being
implemented. The complete response to the memorandum is included as Appendix VI.
Although the IRS is not taking corrective action to recover the overpayments, we are not
taking issue with this decision because some of the overpayments may be recovered
when taxpayers file their 2003 tax returns and net out the advance payment amounts
from the CTCs claimed on those returns. However, we do believe that the IRS can
strengthen its controls to help prevent these problems in the future.
To reduce programming discrepancies for future advance payments, we recommended
that the Commissioner, W&I Division, formalize the process used to develop
programming requirements for future advance payments. This process should ensure
that significant business decisions made because of data limitations or computer
processing limitations are analyzed to determine their potential impact.
Management’s Response to the Draft Report: The IRS appreciated our recognition of
the numerous complex issues that it overcame to successfully implement the CTC
advance payment provisions. However, management did not agree with our
recommendation or the reported outcome associated with it. The IRS has a process
that considers programming requirements for implementing new tax legislation.
Management believes that the IRS process for implementing new legislation is sound
and that further requirements are not necessary. In addition, the IRS anticipates that
the majority of overpayments will be reconciled when the taxpayers file their 2003 tax
returns. Management’s complete response to the draft report is included as
Appendix VII.
Office of Audit Comment: We recognize, as described in the report, that overall the IRS
did a commendable job with implementing the CTC advance payment process.
However, we still believe that had the IRS fully considered losses from self-employment
income when computing the advance CTC payments, the number and amount of
overpayments would have been significantly reduced. Further analysis of the impact of
                                                          3


omitting losses from self-employment from the advance payment calculation should
have revealed the potential for substantial overpayments. We believe these
overpayments could have been reduced without significant additional use of resources.
More importantly, because decisions had already been made on the CTC payments at
the time of our review, our recommendation was to formalize the process used to
develop programming requirements for future advance payments, and this was not
meant to apply to all new tax legislation. Because advance payments represent unique,
high-profile, and potentially high-risk undertakings, we believe that a formal process
specifically addressed to their implementation is appropriate. The conditions identified
in this report serve to support the recommendation that improvements can be made for
future events.
Regarding the potential value of the overpayments, we recognize that the IRS will
recover a portion of these erroneous payments as taxpayers file their tax returns, but no
one is certain as to the extent of the recovered payments. As stated in the report,
taxpayers are not required to repay excess advance payments if they qualify for a
lesser, or no, CTC amount for 2003. Because of the uncertainty of the amount of
overpayments that will be collected, we classified the entire $39 million in potential
overpayments as Inefficient Use of Resources because funds were sent to taxpayers
who did not qualify for the payments. We will perform additional testing during the
2004 Filing Season2 to identify the amount of the payments that were recovered and to
calculate the actual amount of improper payments.
The IRS response categorizes the potential outcome as Funds Put To Better Use rather
than Inefficient Use of Resources. We contacted the IRS and discussed the
reclassification of the outcome measure, but the IRS does not agree with either
outcome measure.
While we still believe our recommendation and potential outcome measure are valid and
worthwhile, we do not plan to elevate our disagreement to the Department of the
Treasury for resolution.
Copies of this report are also being sent to the IRS managers who are affected by the
report recommendation. Please contact me at (202) 622-6510 if you have questions or
Michael R. Phillips, Assistant Inspector General for Audit (Wage and Investment Income
Programs), at (202) 927-0597.




2
    The period between January and mid-April when most individual income tax returns are filed.
    The Child Tax Credit Advance Payment Was Effectively Planned and Implemented,
              but a Programming Discrepancy Caused Some Overpayments




                                                  Table of Contents


Background ............................................................................................... Page 1
The Child Tax Credit Advance Payment Provisions Were
Effectively Planned for and Implemented .................................................. Page 2
A Programming Discrepancy Resulted in Some Taxpayers
Receiving an Overstated Advance Payment ............................................. Page 3
         Recommendation 1: ....................................................................... Page 5

Appendix I – Detailed Objective, Scope, and Methodology ....................... Page 8
Appendix II – Major Contributors to This Report........................................ Page 10
Appendix III – Report Distribution List ....................................................... Page 11
Appendix IV – Outcome Measures ........................................................... Page 12
Appendix V – Memorandum #1: Results of Profit or Loss From
Business (Schedule C) Sample ................................................................. Page 14
Appendix VI – Management’s Response to Memorandum #1................... Page 16
Appendix VII – Management’s Response to the Draft Report ................... Page 18
    The Child Tax Credit Advance Payment Was Effectively Planned and Implemented,
              but a Programming Discrepancy Caused Some Overpayments

                                In May 2003, the Congress passed legislation1 that provided
Background
                                for substantial tax cuts. This legislation also included
                                provisions to increase the Child Tax Credit (CTC) and to
                                have the increase issued to qualifying taxpayers as an
                                advance payment. This would enable taxpayers to receive
                                the benefit of the increased credit during 2003, rather than
                                having to wait to claim it when filing their tax returns in
                                2004.
                                The CTC began in 19982 as a credit for taxpayers with
                                qualifying children. To qualify, the taxpayer’s child must
                                be under age 17, be a citizen or resident of the United
                                States, be claimed as the taxpayer’s dependent, and have a
                                qualified relationship to the taxpayer. The May 2003
                                legislation increased the amount of the CTC from $600 per
                                child to a maximum of $1,000 per child, beginning with
                                Tax Year 2003. The legislation also required that the
                                Internal Revenue Service (IRS) issue advance payments of
                                the increased CTC “as rapidly as possible and, to the extent
                                practicable, before October 1, 2003.”
                                To determine if a taxpayer was eligible for an advance
                                payment, the IRS used the information reported on 2002 tax
                                returns. For each eligible taxpayer, the IRS credited the
                                taxpayer’s account with the advance payment amount and
                                sent the taxpayer a notice advising him or her of the amount
                                to be refunded. If the taxpayer had no outstanding debts, a
                                refund check for the credit amount was issued to him or her.
                                By law, the IRS can issue the advance CTC payments only
                                through the end of 2003. After that, eligible taxpayers who
                                have not received the advance payment may be able to
                                claim the increased credit when filing their 2003 tax returns
                                in 2004. Also, taxpayers who received an advance payment
                                will be required to deduct the advance payment amount
                                from any CTC claimed on their 2003 tax returns.




                                1
                                  Jobs and Growth Tax Relief Reconciliation Act of 2003, Pub. L. No.
                                108-27, 117 Stat. 752.
                                2
                                  The CTC was established by the Taxpayer Relief Act of 1997, Pub. L.
                                No. 105-34, 111 Stat. 788 (codified as amended in scattered sections of
                                5 U.S.C., 19 U.S.C., 26 U.S.C., 29 U.S.C., 31 U.S.C., 42 U.S.C., and
                                46 U.S.C. app.).
                                                                                                Page 1
    The Child Tax Credit Advance Payment Was Effectively Planned and Implemented,
              but a Programming Discrepancy Caused Some Overpayments

                                This review was performed at the IRS National
                                Headquarters and the New Carrollton, Maryland, office
                                during the period June through October 2003. The audit
                                was conducted in accordance with Government Auditing
                                Standards. Detailed information on our audit objective,
                                scope, and methodology is presented in Appendix I. Major
                                contributors to the report are listed in Appendix II.
                                The IRS effectively planned for and implemented the CTC
The Child Tax Credit Advance
                                advance payment provisions. As of September 30, 2003,
Payment Provisions Were
                                the IRS had issued credits totaling $15 billion to
Effectively Planned for and
                                approximately 25 million taxpayers, with the majority of
Implemented
                                these being issued in the first 3 weeks of the program.
                                The IRS began preparations in January 2003 by establishing
                                a multifunctional working group to begin planning for the
                                possibility that proposed tax legislation would include an
                                advance payment provision. This working group included
                                representatives from the major IRS functions affected by the
                                advance payment. The IRS also coordinated with external
                                stakeholders, such as the Financial Management Service
                                (which actually issued the refund checks) and the
                                Department of the Treasury.
                                When the IRS began developing the computer programming
                                requirements, it faced a difficult task. Because the
                                legislation had not been passed when the planning was
                                started, the requirements were developed before the final
                                form of the legislation was known. Accordingly, the IRS
                                had to be prepared to make various changes as time
                                progressed and passage of the legislation came closer. After
                                the legislation was signed, the programming was properly
                                tested to verify that it matched the programming
                                requirements. However, the scope of the testing did not
                                include verifying that the requirements matched the intent of
                                the legislation, only that the programming output matched
                                the requirements. The IRS implemented the advance
                                payment provision in a little more than a month’s time after
                                the legislation was signed.
                                While this advance payment was similar to the one issued
                                during 2001, the fact that it was an advance payment of a
                                credit rather than a tax reduction created increased
                                complexity. The computations were very involved and
                                required in-depth analyses of many items from the tax
                                                                                      Page 2
    The Child Tax Credit Advance Payment Was Effectively Planned and Implemented,
              but a Programming Discrepancy Caused Some Overpayments

                                return. The requirements for the computer programming
                                were revised several times prior to being finalized. Apart
                                from the issue discussed in the next section, we determined
                                that the advance payments were accurately computed and
                                that all eligible taxpayers received an advance payment.
                                To inform taxpayers about their advance payments, the IRS
                                developed an informational notice to be issued concurrently
                                with the payments and contracted with an outside vendor to
                                print and mail the notices to taxpayers. This notice included
                                the reason the taxpayer was receiving a refund, the amount
                                of the refund, the number of qualifying children used to
                                calculate the amount, and a web site address and toll-free
                                telephone number to call if the taxpayer had questions. The
                                IRS also established an automated toll-free telephone
                                application to provide the amount of a taxpayer’s advance
                                payment and the date it was scheduled to be issued. We
                                verified that the notices were accurate and informative and
                                that the toll-free telephone application provided accurate
                                information to taxpayers.
                                While the IRS did a commendable job preparing and
A Programming Discrepancy
                                implementing the CTC advance payment process, a
Resulted in Some Taxpayers
                                computer programming discrepancy caused some
Receiving an Overstated
                                taxpayers to receive a larger advance payment amount
Advance Payment
                                than they were entitled to receive. We estimate that at
                                least 91,000 taxpayers received over $39 million in excess
                                advance payments.
                                An omission in the programming requirements caused the
                                overpayments. The advance payment should have been
                                limited if the earned income on the tax return was below a
                                certain amount. Earned income is generally defined as
                                income from wages and profit or losses from
                                self-employment. When calculating the advance payment
                                amount based on the 2002 tax return information, the
                                programming logic did not always include self-employment
                                losses claimed on either Profit or Loss From Business
                                (Schedule C) or Profit or Loss from Farming (Schedule F),
                                as required by law when computing earned income. By
                                erroneously overstating earned income in some cases, the
                                programming computed a larger advance payment than was
                                appropriate.


                                                                                      Page 3
The Child Tax Credit Advance Payment Was Effectively Planned and Implemented,
          but a Programming Discrepancy Caused Some Overpayments

                            The President’s Management Agenda requires agencies to
                            track and report the amount of erroneous payments made as
                            part of their programs, with the goal of reducing erroneous
                            payments. In accordance with this goal, the IRS should
                            have ensured that the advance payment amounts were as
                            accurate as possible, given the information available to
                            compute the amount.
                            We reported this programming discrepancy related to
                            taxpayers claiming losses on Schedule C to the
                            Commissioner, Wage and Investment (W&I) Division, via a
                            memorandum issued August 29, 2003 (see Appendix V).
                            We subsequently notified the Commissioner, W&I Division,
                            regarding the related overpayments involving taxpayers
                            claiming Schedule F losses.
                            The Commissioner’s response to our memorandum (see
                            Appendix VI) agreed that some taxpayers received an
                            overpayment of the advance CTC payment. The response
                            also indicated that the IRS intentionally chose to omit some
                            self-employment losses from the CTC advance payment
                            calculations and that the computer programming
                            requirements were approved by the Department of the
                            Treasury’s Office of Tax Policy. The reason for omitting
                            the losses was that the information needed to compute the
                            true earned income was not available from the return
                            information.
                            We do not agree that the information needed to more
                            accurately compute earned income was not available from
                            the 2002 tax returns. The information from the Schedules C
                            and F was readily available and could have been used for
                            the earned income computation. In fact, the IRS used this
                            information during return processing to verify the amount of
                            the CTC claimed.
                            The IRS has chosen not to take corrective action to recover
                            the overpayments resulting from the programming
                            discrepancy. As the Commissioner indicated in the
                            response to our memorandum, some of the overpayments
                            may be recovered when taxpayers file their 2003 tax returns
                            and net out the advance payments received from the CTCs
                            claimed on the returns. However, the law does not require
                            taxpayers to repay excess amounts if they qualify for a
                            lesser CTC amount (or no CTC amount) on their 2003 tax
                                                                                  Page 4
The Child Tax Credit Advance Payment Was Effectively Planned and Implemented,
          but a Programming Discrepancy Caused Some Overpayments

                            returns. For example, if a taxpayer received an erroneous
                            advance payment of $400 based on his or her 2002 tax
                            return, he or she would not be required to repay this amount
                            if he or she did not have any qualifying children on his or
                            her 2003 tax return. Accordingly, we cannot determine at
                            this time how much of the overpayments may be recovered,
                            although we do plan to perform additional work during our
                            2004 Filing Season3 review to quantify this amount.
                            Because the IRS intentionally decided to omit
                            self-employment losses in the advance payment
                            computation, and this omission caused a substantial
                            overpayment, it appears that an evaluation of the impact of
                            this decision was not made. Accordingly, we believe that
                            the decision-making process related to developing the
                            advance payment programming requirements could be
                            improved. Because an undetermined amount of the
                            overpayments may be recovered when taxpayers file their
                            2003 tax returns, we are not taking issue with the IRS’
                            decision to not take corrective action. However, we believe
                            that the IRS can strengthen its controls to help prevent
                            similar problems in the future.

                            Recommendation

                            To reduce programming discrepancies for future advance
                            payments, the Commissioner, W&I Division, should:
                            1. Formalize the process used to develop programming
                               requirements for future advance payments. This process
                               should ensure that significant business decisions made
                               because of data limitations or computer processing
                               limitations are analyzed to determine the potential
                               impact of these decisions. This analysis should include
                               a documented evaluation of potential outcomes,
                               including the numbers of taxpayers that may be affected.
                            Management’s Response: The IRS did not agree with this
                            recommendation or the reported outcome associated with it.
                            The IRS has a process that considers programming
                            requirements for implementing new tax legislation.

                            3
                              The period between January and mid-April when most individual
                            income tax returns are filed.
                                                                                         Page 5
The Child Tax Credit Advance Payment Was Effectively Planned and Implemented,
          but a Programming Discrepancy Caused Some Overpayments

                            Programming requirements are driven by both data
                            availability and the practicality of retrieving and interpreting
                            the data. The level of complexity, the overall desired
                            outcome, and timeliness of actions are also factors that
                            influence the IRS’ decision-making process.
                            IRS management believes that the IRS process for
                            implementing new legislation is sound and that further
                            requirements are not necessary. In addition, the IRS
                            anticipates that the majority of overpayments will be
                            reconciled when the taxpayers file their 2003 tax returns.
                            Office of Audit Comment: We recognize, as described in
                            the report, that overall the IRS did a commendable job with
                            implementing the CTC advance payment process.
                            However, we still believe that had the IRS fully considered
                            losses from self-employment income when computing the
                            advance CTC payments, the number and amount of
                            overpayments would have been significantly reduced.
                            Further analysis of the impact of omitting losses from
                            self-employment from the advance payment calculation
                            should have revealed the potential for substantial
                            overpayments. We believe these overpayments could have
                            been reduced without significant additional use of resources.
                            More importantly, because decisions had already been made
                            on the CTC payments at the time of our review, our
                            recommendation was to formalize the process used to
                            develop programming requirements for future advance
                            payments, and this was not meant to apply to all new tax
                            legislation. Because advance payments represent unique,
                            high-profile, and potentially high-risk undertakings, we
                            believe that a formal process specifically addressed to their
                            implementation is appropriate. The conditions identified in
                            this report serve to support the recommendation that
                            improvements can be made for future events.
                            Regarding the potential value of the overpayments, we
                            recognize that the IRS will recover a portion of these
                            erroneous payments as taxpayers file their tax returns, but
                            no one is certain as to the extent of the recovered payments.
                            As stated in the report, taxpayers are not required to repay
                            excess advance payments if they qualify for a lesser, or no,
                            CTC amount for 2003. Because of the uncertainty of the
                            amount of overpayments that will be collected, we classified
                                                                                     Page 6
The Child Tax Credit Advance Payment Was Effectively Planned and Implemented,
          but a Programming Discrepancy Caused Some Overpayments

                            the entire $39 million in potential overpayments as
                            Inefficient Use of Resources because funds were sent to
                            taxpayers who did not qualify for the payments. We will
                            perform additional testing during the 2004 Filing Season to
                            identify the amount of the payments that were recovered and
                            to calculate the actual amount of improper payments.
                            The IRS response categorizes the potential outcome as
                            Funds Put To Better Use rather than Inefficient Use of
                            Resources. We contacted the IRS and discussed the
                            reclassification of the outcome measure, but the IRS does
                            not agree with either outcome measure.




                                                                                 Page 7
       The Child Tax Credit Advance Payment Was Effectively Planned and Implemented,
                 but a Programming Discrepancy Caused Some Overpayments

                                                                                          Appendix I


                             Detailed Objective, Scope, and Methodology

The overall objective of our review was to determine if the Internal Revenue Service (IRS)
effectively prepared for and implemented the Child Tax Credit (CTC) advance payment
provision of the Jobs and Growth Tax Relief Reconciliation Act of 2003.1
To accomplish our objective, we:
I.         Evaluated the programming requirements and testing of the programming for computing
           and posting the advance payments to determine if it was sufficient to ensure that all
           eligible taxpayers received an advance payment for the correct amount.
           A. Determined if the relevant programming documentation had any logic problems or
              discrepancies, if any adverse account impacts would occur due to the advance
              payments, and if the IRS programmers had any concerns or issues related to the
              programming.
           B. Determined if the testing of the programming for the advance payment was sufficient
              to ensure that material problems had been identified and corrected. This included
              determining if the proper testing process was followed and if problems identified
              during testing were analyzed, corrected, and retested.
II.        Evaluated the IRS’ planned methods to inform the public about the advance payments.
           This was limited to the initial notices and the automated toll-free telephone application.
           A. Determined if the notices issued concurrently with the advance payment checks were
              accurate and informative. We obtained copies of the initial notices and reviewed
              them for accuracy and readability. During our accuracy review, we identified a
              problem with the calculation of the advance payments related to self-employment
              losses. Based on this information, we expanded the scope of our audit to include
              subobjective III.
           B. Determined if the automated toll-free telephone application accurately and effectively
              informed taxpayers about their advance payments. We obtained copies of the script
              used by the automated telephone system and analyzed it for effectiveness. We also
              placed test calls to verify the accuracy of the information being given.




1
    Pub. L. No. 108-27, 117 Stat. 752.
                                                                                               Page 8
       The Child Tax Credit Advance Payment Was Effectively Planned and Implemented,
                 but a Programming Discrepancy Caused Some Overpayments

III.     Evaluated the advance payment amounts posted to taxpayer accounts for accuracy and
         determined if all eligible taxpayers received advance payments as required by law. For
         all tests, we used data obtained from the IRS Individual Return Transaction File2 or the
         original data files the IRS generated to post the advance payments to taxpayer accounts.
         We took appropriate data validation steps for all data extracts, including reviewing log
         files, matching record counts, and matching the data back against the source file.
         A. Reviewed statistically valid samples of 322 returns with a loss on Profit or Loss from
            Business (Schedule C) and 379 returns with a loss on Profit or Loss from Farming
            (Schedule F) to quantify the effect of omitting self-employment losses from the
            advance payment computation. We had first identified this problem in subobjective
            II.A. We manipulated our data to isolate the returns most likely to contain an
            overpayment and identified populations of 89,909 returns with Schedule C losses and
            27,862 with Schedule F losses. We used a confidence level of 95 percent and a
            precision of + 5 percent for both samples. The expected error rate for the Schedule C
            sample was 70 percent, with the actual error rate being 84 percent. For the
            Schedule F sample, the expected and actual error rates were both 59 percent. The
            difference in the error rates between the two samples was due to different return
            characteristics.
         B. Reviewed a statistically valid sample of 249 returns to verify the accuracy of the
            posted advance payment amounts. We selected this sample from an overall
            population of approximately 24 million advance payment posting records obtained
            from the IRS. We used a confidence level of 95 percent, a precision of + 3 percent,
            and an expected error rate of 2 percent for this sample.
         C. Selected and reviewed a statistically valid sample of 200 returns to determine if all
            eligible taxpayers received an advance payment as required by law. We selected this
            sample from the population of approximately 5 million accounts with a CTC claimed
            on the return, but with no advance payment issued by the IRS. We used a confidence
            level of 95 percent, a precision of + 3 percent, and an expected error rate of 5 percent
            for this sample.




2
 The Individual Return Transaction File contains the tax return information that is input from individual tax returns
as they are processed. This includes income, tax, and credit amounts reported and allowed on the return.



                                                                                                             Page 9
    The Child Tax Credit Advance Payment Was Effectively Planned and Implemented,
              but a Programming Discrepancy Caused Some Overpayments

                                                                                Appendix II


                           Major Contributors to This Report

Michael R. Phillips, Assistant Inspector General for Audit (Wage and Investment Income
Programs)
Scott Macfarlane, Director
Gary L. Young, Acting Director
Richard Calderon, Audit Manager
Linda Bryant, Senior Auditor
Carola Gaylord, Senior Auditor
Steven Stephens, Senior Auditor




                                                                                         Page 10
   The Child Tax Credit Advance Payment Was Effectively Planned and Implemented,
             but a Programming Discrepancy Caused Some Overpayments

                                                                            Appendix III


                              Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Senior Advisor to the Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Wage and Investment Division SE:W
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaison: GAO/TIGTA Liaison, Wage and Investment Division SE:W:S:PA




                                                                                 Page 11
     The Child Tax Credit Advance Payment Was Effectively Planned and Implemented,
               but a Programming Discrepancy Caused Some Overpayments

                                                                                                    Appendix IV


                                             Outcome Measures

This appendix presents detailed information on the measurable impact that our recommended
corrective action will have on tax administration. This benefit will be incorporated into our
Semiannual Report to the Congress.
Type and Value of Outcome Measure:
•   Inefficient Use of Resources – Potential; 91,000 taxpayer accounts received erroneous credit
    overpayments totaling over $39 million (see page 3).
Methodology Used to Measure the Reported Benefit:
We obtained the current year (Tax Year 2002) Internal Revenue Service (IRS) Individual Return
Transaction File1 (RTF) records and developed specific criteria to select those returns on the file
with the most chance of being affected by the programming discrepancy. The overall population
of returns on the RTF was approximately 121 million. The specific criteria included all returns
with a Profit or Loss From Business (Schedule C) or Profit or Loss From Farming (Schedule F)
loss greater than $1,000 and an Additional Child Tax Credit claimed. We selected and reviewed
two samples, one focused on returns with a loss on Schedule C and the other on returns with a
loss on Schedule F. The population for the Schedule C sample was 89,909, and the population
for the Schedule F sample was 27,862.
We used a 95 percent confidence level and a + 5 percent precision for both samples, although the
expected error rate differed between the 2 samples due to the characteristics of the returns. The
expected error rate for the Schedule C loss sample was 70 percent, and for the Schedule F loss
sample the expected error rate was 59 percent. We reviewed 322 returns with Schedule C losses
and 379 returns with Schedule F losses.
We determined the correct advance payment amount that should have been allowed if the
self-employment loss (from Schedules C or F) on the return had been included in the
computation. We subtracted this amount from the amount actually allowed by the IRS. The
difference was the overpayment amount. We then projected the average overpayment amount
from the sample to the overall population.
For the Schedule C sample, we identified 269 out of 322 returns (84 percent actual error rate)
that had overpayments averaging $414. From this we projected 75,000 taxpayers with a
Schedule C loss were overpaid approximately $31 million. For the Schedule F sample, we
identified 222 out of 379 returns (59 percent actual error rate) had overpayments averaging $490.
From this we projected 16,000 taxpayers with a Schedule F loss were overpaid approximately

1
 The Individual RTF contains the tax return information that is input from individual tax returns as they are
processed. This includes income, tax, and credit amounts reported and allowed on the return.
                                                                                                                Page 12
    The Child Tax Credit Advance Payment Was Effectively Planned and Implemented,
              but a Programming Discrepancy Caused Some Overpayments

$8 million. When we combined the results of the 2 samples, we determined that
91,000 taxpayers received erroneous CTC advance payments totaling over $39 million.




                                                                                      Page 13
    The Child Tax Credit Advance Payment Was Effectively Planned and Implemented,
              but a Programming Discrepancy Caused Some Overpayments

                                                                                   Appendix V


 Memorandum #1: Results of Profit or Loss From Business (Schedule C) Sample

                                    August 29, 2003

                                                                        Response Date:
                                                                    September 15, 2003


MEMORANDUM FOR COMMISSIONER, WAGE AND INVESTMENT DIVISION

FROM:                  Michael R. Phillips
                       Assistant Inspector General for Audit
                       (Wage and Investment Income Programs)

SUBJECT:               Identified Problem with the Child Tax Credit Advance Payment
                       Calculation (Audit # 200340046)


Background
As part of our review of the Child Tax Credit (CTC) advance payment, we reviewed a
sample of advance payment notices that would be issued to taxpayers. This was done
to verify the accuracy of the advance payment amount on the notice. Based on our
review results, we identified programming logic that caused some taxpayers with a self -
employment loss to receive an erroneous advance overpayment amount. In order to
quantify this c ondition, we selected a statistical sample and reviewed the cases to
determine the extent of the condition, along with the estimated overpayment amount.
To identify taxpayer accounts that would most likely be affected by this condition, we
focused on tax returns with a net Schedule C (Profit or Loss From Business) loss of
$1,000 or more, and with a net combined Schedule C and wage amount less than
$20,500.

Results
Based on our sample review, we estimate 75,000 taxpayers received overstated
advance payment s, totaling approximately $31 million. Additionally, because our
Schedule C selection criteria excluded losses below $1,000, there will be other
taxpayers affected that are not included in our estimate. We are currently reviewing a
statistical sample of returns with a Schedule F (Profit or Loss From Farming) loss using
the same dollar amount selection criteria. We will provide you the results of the
Schedule F sample in a separate memorandum.


                                                                                           Page 14
   The Child Tax Credit Advance Payment Was Effectively Planned and Implemented,
             but a Programming Discrepancy Caused Some Overpayments




Discussions with the Internal Revenue Service
We discussed the self-employment loss issue with Dianne Grant, Senior Advisor
to the Office of the Commissioner, on July 22 and August 5, 2003. We provided
the identity of 10 affected taxpayers to the CTC advance payment programmer
on August 13, 2003, for review and verification. On August 14, 2003, we also
provided Dianne Grant an identity listing of the 89,909 taxpayers in our selection
population, along with our selection population criteria, for her review and factual
agreement to the estimate of the erroneous payments issued.

We would appreciate your concurrence or non-concurrence to the information in
this memorandum by the response date noted. If you do not concur, please
provide the basis for your non-concurrence for further discussion.

If you have any questions, please call me at (202) 927-0597 or have your staff
contact either acting Customer Account Services Director Gary Young at (512)
460-7074 or Audit Manager Richard Calderon at (559) 454-6135.




                                                                                       Page 15
The Child Tax Credit Advance Payment Was Effectively Planned and Implemented,
          but a Programming Discrepancy Caused Some Overpayments

                                                                   Appendix VI


               Management’s Response to Memorandum #1




                                                                         Page 16
The Child Tax Credit Advance Payment Was Effectively Planned and Implemented,
          but a Programming Discrepancy Caused Some Overpayments




                                                                         Page 17
The Child Tax Credit Advance Payment Was Effectively Planned and Implemented,
          but a Programming Discrepancy Caused Some Overpayments

                                                                  Appendix VII


               Management’s Response to the Draft Report




                                                                         Page 18
The Child Tax Credit Advance Payment Was Effectively Planned and Implemented,
          but a Programming Discrepancy Caused Some Overpayments




                                                                         Page 19
The Child Tax Credit Advance Payment Was Effectively Planned and Implemented,
          but a Programming Discrepancy Caused Some Overpayments




                                                                         Page 20
